No

.

IN THE
;
SUPREME COURT OF THE UNITED STATE'L.3

ADAM M. LIEVORE •

— PETITIONER

(Your Name) _

• FILED

FEB 0 9 2u21

vs.

STATE OF OHIO

— RESPONDENT(S)

OFFICE OF THE CLERK
SUPREME COURT U.S.

ON PETITION FOR A WRIT OF CERTIORARI TO

FIFTH DISTRICT CDURT OF APPEALS FOR RI(L)

cousin, amo

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Adam fol. Wan A704-923
(Your Name)

1001 Olivesburg Rd.
(Address)

Mansfield, Ohio 44905
(City, State, Zip Code)
N/A
(Phone Number)

-

QUESTION(S) PRESENTED

The following questions presented involves a post-sentence withdraw of plea
for government misconduct:

1)

Is the service of a fake indictment ("warrants") and threats to foster a
child to induce guilty pleas consistent with the demands of due process guarenteed by the Fourteenth Amendment to the United States Constitution?

2)-- --Does-defense counsel's failure to verify the alleged-filing of another-indict,merit ("warrants") before convincing a defendant to enter a guilty plea constitute a violation of the Sixth Amendment to the United States Constitution
right to the effective assistance of counsel?
3)

Does an unwittingly signed waiver of indictment at a change of plea hearing
cure the fake indictment inducement when a petitioner was blindly signing
numerous documents pointed at by counsel? And is this practice consistent
with due process guaraenteed by the Fourteenth Amendment to the United States
Constitution as well as the right to the effective assistance of counsel
guarenteed by the Sixth Amendment to. the United. States Constitution?
Is the trial court's on record dismissal of "count two" of the subsequent
fake indictment coupled with an officer's report affirming service of the
fake indictment ("warrants") at the direction of prosecutors sufficient to
_demonstrate a post-sentence manifest miscarriage of justice when said f4ke
indictment ("warrants") is not anywhere in the record and petitioner did not '
discover said documents for nearly seven (7) years after entering guilty pleas?

li

LIST OF PARTIES

[

All parties appear in the caption of the case on the cover page.

[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

DAVE YOST
OHIO ATTORNEY GENERAL
30 E. BROAD St.
COLUMBUS, OHIO 43215

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Arsenault v. Massechusetts, 393 U.S. 5
Boykin v. Alabama 395 U.S. 238
Brady v. United States, 397 U.S. 747, 755
MoMann v. Richardson, 397 U.S. 759, 770
Shelton. v. United States, 356, U.S. 26

10
10
7,10
10
10
10

FAVP• 244
United States v. Ferrero, 456 F.3d at 294
United States v. Fisher, 711 F.3d 460
White v. Maryland, 373 U.S. 59
$21b3S13X tel. ElkinS V•

CIMTN_ 256

7
7
10

STATUTES AND RULES

O.R.C. 2929.25(A) (domestic Violence throughout) .
2921.04(3) (intimidation throughout)
O.R.C. 2921.21 (obstruction of justice throughout)

7, passim

00 •

OTHER ,

Ohio Rule. of Criminal Procedure 32.1 withdrawal of guilty plea
inherent throughout but not cited

iv

7; passim
7, passim

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

4-6

REASONS FOR GRANTING THE WRIT
CONCLUSION

7-10
10

INDEX TO APPENDICES
APPENDIX A

geptember 30, 2020 opinion of the Fifth District Court of Appeals
for Richland County, Ohio

APPENDIX B December 29, 2020 entry declining jurisdiction in the Sppreme Cburt
of Ohio
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
]

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ reported at
; or,
[ has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[x] reported at 2020-Ohio-4668; 2020 Ohio App. LEXIS 3532 ; or,
] has been designated for publication but is not yet reported; or,
] is unpublished.
The opinion of the
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ has been designated for publication but is not yet reported; -or,
[ ] is unpublished.
1.

to

JURISDICTION
[

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[

No petition for rehearing was timely filed in my case.

[

A timely petition for rehearing was denied by the United States Court of
Appeals on the following date, and a copy_ of the_
order denying rehearing appears at Appendix

[

An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No.
A

The jurisdiction of this Court is invoked under 28 U. S. C. §1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was D'
ffber 291
A copy of that decision appears at Appendix B

2°2°

[

A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix

[

An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No
A

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Sixth Amendment to the United States COnstitution:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the crime
sahll have been catinitted, which district shall have been ascertained by law, and
to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in
his favorvand to have_the_Assistance of Counsel for his defense.

Fourteenth Amendment to the United States Constitution:
(In part) All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property without due process of law; nor
deny to any person within it's jurisdiction the equal protection of the law.

STATEMENT OF THE CASE

On Saturday, July 28, 2012, Petitioner, Adam M. DeVore, (hereinafter DeVore
or petitioner), was unlawfully seized without probable cause by members of the
Mansfield Police Department for alleged cruelty to his (ex) wife and immediately
jailed. The following Monday bond was set at 25,000.00 dollars cash. DeVore was
appointed Glenda Thompson as defense counsel and a preliminary hearing was scheduled (presumably Monday, August 6, 2012). At the preliminary hearing, immediately
prior to DeVore's turn for hearing, counsel Thompson claimed a family emergency,
claimed the hearing rescheduled and left. However, the hearing was not rescheduled

- and DeVore was indicted the following Monday on August 13, 2012 on one count of
Domestic Violence.
On Tuesday, August 21, 2012, DeVore was arraigned, entered a plea of not guilty
fired counsel Thompson for her abandonment, and was appointed Anica Blazef-Horner
(counsel) as defense counsel. Devore advised counsel of his innocence, his wife's
lengthy history of deceit, adultry, and her use of the law to gain control over
marital situations, hide wrongdoings, and revenge. DeVore also advised counsel
that he would not waive his right to speedy trial just so the government could
keep him in an indefinite state of limbo and try him at their convenience.
On Monday, September 24, 2012, in an attempt to get DeVore to waive his speedy
trial rights, counsel advised DeVore that the government requested to reduce
DeVore's unattainable 25,000.00 dollar cash bond to a personal recognizance signature bond. Trick no good. DeVore elected to remain in jail in lieu of being released
and having his bond arbitrarily violated and revoked by the government, nullifying.
DeVore's already incurred sacrifice of pretrial confinement. The government also
offered DeVore probation in exchange for a guilty plea,, DeVore refused.
On Tuesday, October 9, 2012, fearing speedy trial dismissal or that their
victim would change her story to the truth at trial, the government served DeVore

4

with a fabricated two count indictment, charging Intimidation and Obstruction of
Justice (referenced to as filed "warrants," see December 13, 2019 motion to withdraw,
exhibit 5.), threatened to jail DeVore's pregnant wife and have their one year old
son committed to foster care if DeVOre did not cooperate.
Counsel met with DeVore (the next day or) that day shortly after the service
of the new indictment to advise him that the government was willing to dismiss the
Obstruction charge and still gaurentee community control in exchange for a guilty
plea to_Dcaestic Violence and Intimidation and that the new charges reset DeVore;s
speedy trial timelines. DeVore advised counsel of the government's threats to his
wife and child, where counsel did not doubt the threats and simply advised DeVore
that the government would certainly follow through if they did not get the convictions they sought. DeVOre reluctently agreed to convict himself to save his family.
On Friday, October 12, 2012, a change of plea hearing was held. Judge Henson
noted the dismissal of count- II, Obstruction of Justice on the plea form, indicating
his knowledge per prosecutors and defense counsel that the offense had been charged
and filed against DeVore. DeVore signed all forms where counsel pointed (as she
advised it was all "part of the process") and entered his guilty pleas orally. After
the hearing DeVore was released from custody and a pre-sentence investigation was
ordered.
On Wednesday, November 21, 2012, a sentencing hearing was held where judge
Henson imposed a susended one year term of imprisonment for Domestic Violence and
suspended a two year term of imprisonment for Intimidation to be served consecutively
and imposed three years of community control as agreed upon by both parties. DeVore
was ordered to attend Alcoholics Anonymous dispite the fact that DeVore did not
suffer from alcoholism and was forced to attend 21 week of advanced feminist reeducation classes (a.k.a the D.O.V.E. Program) that DeVore protested against at every
class and in every required essay. Subsequently, DeVore completed community control
without receiving any form of reprimand, sanction, or violation dispite his protests

5

against mass female victimization and feminist law.
On Tuesday, November 26, 2019, DeVore received discovery in an unrelated case
where the contents of 2012-CR-0563 and 2012-CR-0742 were included. DeVore began
a review of the documents and discovered that no additional charges had actuall
y
been filed on October 9, 2012, which induced his pleas, and that only a single
count
Bill of Information was filed October 11, 2012-one day before the change of
plea
hearing and two days after officers served DeVore with a falsely manufactured
two
count indictment.
On Friday, December 12, 2019, DeVore moved to withdraw his guilty pleas due
to fraud and other grounds.
On January 27, and 28, 2019, Judge Naumoff (not DeVore's presiding judge)
entered a judgment denying DeVore's motions.
On Wednesday, February 12, separate notices of appeals were filed. DeVore later
moved for consolidation. The appellate court consolidated the cases and on Septemb
er
30, 2020, affirmed the trial court.
DeVore sought discretionary review in the Ohio Supreme Court. On December 29,
2020, the Ohio Supreme Court declined to accept jurisdiction.
DeVore now seeks review in the United States Supreme Court.

6

REASONS FOR GRANTING THE PETITION

In accordance with Supreme Court Rule 10(b), the Ohio Fifth District Court
of Appeals has decided an important federal question of a knowing, intelligent,
and voluntary guilty plea in a way that conflicts with the United States Fourth
Circuit Court of Appeals in Emitted States v. Fisher, 711 F.3d 460.
In Fisher, the Fourth Circuit held that:
"lh have his plea vacated, in additkri to thyding impezinissable govexnmert fit, Defendant last shad that tie miscarirt iirboed him to
plead guilty. Etaly v. UhitEd StatEs, 397 U.S. at 755. In ±1 wzxds,
Defendant mist show .reascnable pretability that, hit far tote
would at have pleaded guilty and would hate insisted on (going to trial." Baum, 456 F.3d at 294 (citation omitted). Courts We
an objective cti4.tuaLh to ciatermining zeasonable prcipability. Id. Ms,
Deem:bit must shod that a ressznable defentst standing in his shoes
likely waild have altered his dsaision to plead 'guilty, had he lama
about [the] misxmliot." Change rat-,34,

Petitioner's guilty pleas were fraudulently induced by the service. of a fake
indictment ("warrants") on October 9, 2012, charging petitioner with two (2) new
offenses -- obstruction of justice, O.R.C. 2921.21, and intimidation, O.R.C. 2921.04
(B). Because no real indictment exists pertaining to the above charges there is
nothing in the record except the police report (defense exhibit 5) that affirms
the service of new charges on October 9, 2012. It was only after petitioner agreed
through defense counsel on October 10, 2012, to plead guilty to his original charge
of domestic violence, O.R.C. 2919.25(A), and one of the new charges (intimidation)
in the fake indictment that the State filed a single count bill of information on
October 11, 2012, charging intimidation. For the past near eight (8) years (seven
(7) years at the time of discovery) petitioner had no knowledge of any bill of information. Only knowledge of the fake indictment (that he thought was read) that was
served on him on October 9, 2012, approximately seventeen (17) days before speedy
trial dismissal for his original charge of domestic violence.
Compounding petitioner's stress of this new (fake) indictment was the advisement from his (ex) wife the night of October 9, 2012, that prosecutors (or police)

7

had told her that if she did not come to trial that she would be arrested and
they
would put our one- (1) year old, son in to foster care. Petitioner advised
his
counsel of this threat on the 10th and counsel nevertheless affirmed the threat
and fostering as a consequence if petitioner did not enter a plea as the State
wanted
to eliminate the possibility of a no show or acquittal. Petitioner reluctenly
entered
guilty pleas to crimes he did not commit to save his family from the disaste
r the
government was willing to create for a conviction at any cost. The State has
never
denied the forewgoing allegations.
Notably, not once in the appellate court's opinion analysis does court mention
service of charges on October 9, 2012. Instead, it is entirely evaded in favor
of
asserting that petitioner unwittingly signed a waiver of indictment at the October
12, 2012 change of plea hearing. However, the fact is is that petitioner
blindly
signed numerous documents at the plea hearing because his counsel pointed
and said
"sign here." However, the appellate court's assertion is belied by judge Henson'
s
notation on the change of plea form, in case no. 12-CR-742, that count two (2)
is
dismissed. Because "count two" never existed in the October 11, 2012 bill of
information it is obvious that the judge was going by the verbal representation of
both
State and defense counsel when he made said notation at the change of plea
hearin

g.

the appellate court went on to claim petitioner's delay in filing as "proble
matic." However, neither the court not the State, in any filing, ever present
ed
any factual basis or alleged prejudice that the timing of petitioner's motion
presented a problem. In fact, as explained in petitioner's State filings petitio
ner
did not "wait" to file his plea withdraw motion. Petitioner did not discove
r the
one (1) count bill of information and police'report until counsel provided discove
ry
in an unrelated case in late November 2019. Petitioner's motion to withdraw
was
filed within three (3) weeks on December 12, 2019. There was no delay
in filing,
only a delay between the time the pleas were entered and the time petitioner
dis-.
covered the police report and bill of information that exposed fraudulent and
im-

8

permissible government conduct.
The appellate court purposely misinterpreted petitioner's grounds to withdraw
his pleas and then journalized that misinterpretation. The appellate court stated"
"[W]e find appellant's argument that his plea was in effect not voluntary because
it was induced by appellee's decision to drop or not indict upon a count of obstruc
tion is insufficient to demonstrate a manifest injustice." This was not the basis
of petitioner's argument.
Petitioner's grounds (or argument) for withdrawal are that he was served with
a fake two (2) count indictment ("warrants") on October 9,.2012 -- two (2) days
before any additional charges were actually filed -- which gave petitioner a bonafide belief that he had again been indicted. And that defense counsel affirmed that
belief on the 10th without confirmation through the clerk of any additionally filed
charges and encouraged petitioner to accept a plea offer from the State that include
d
the dismissal of one (1) of the newly indicted offenses. When, in fact, on October
,
9, 10, 11, 12, through the present three existed no new indictment rwarrants")
of any kind. Only a bill of information filed after inducement.
Defense counsel's misrepresentation to petitioner and obvious collusion in
the State's impermissable conduct of serving fake process to induce a plea was done
to avoid a trial that petitioner has insisted on from the moment of arrest. Petitioner refused to bond out on a personal recognizance bond, reduced at the State's
request, from a twenty-five thousand (25,000.00) dollae cash bond. The State desParately wanted more time to prosecute a weak case, and because petitioner would
not take the bait of a bond that would likely be arbitrarily revoked, the State
served petitioner a fake indictment ("warrants"), got petitioner to agree to terms
of an offer through counsel, then filed a bill of information which was never disclosed to petitioner, then had counsel slip in the stack of papers for signing a
waiver of indictment and represented to the trial court that "count two" was being
dismissed when,, in fact. "count two" was never filed! The appellate court's "more

likely explanation" of what happened in this case is not ccnpatable with the trial
court's change of plea form in case no. 12-CR-742, nor is it compatable with the
October 9, 2012 police report that states "[pier prosecutor Pigg, felony warrants
for intimidtion and obstructing justice were completed and served upon OFI at the
incident location."
The Fifth District's holding is also contrary to Brady v. United States, 397
U.S. 742; Boykin v. Alabama, 395 U.S. 238; Shelton v. United States, 356 U.S. 26;
Mictlann v. Richardson, 397 U.S. 759, 770; Stridklaixiv. Washington, 446 U.S. 668;
White v. Maryland, 373 U.S. 59; Arsenault v. Massediusetts, 393 U.S. 5; and United
States ex rel. Elksnis v. Gilligan, 256 F. Supp. 244 (S.D.N.Y. 1966).
Petitioner's pleas were not knowing, intelligent, and voluntary because, at
the time he entered the pleas, he believed he was under a new two (2) count indictment served. October 9, 2012, when, in fact, there was never a new indictment. Had
petitioner known that the indictment ("warrants") served upon him on October 9,
2012 were fake he would have brought it to the attention of the trial court, requested dismissal of all charges with prejudice, and requested the court sanction
both State's and defense counsel and submit their conduct to the Disciplinary Counsel
of the Ohio Supreme Court, or request to go to trial on the original charge of
domestic violence only if the trial court would not dismiss. However, both cases
could easily have been beat with effective counsel.
CONCLUSION

The petition for a writ of certiorari should be granted.

am M. DeVore A
Richland Correctional Inst.
1001 Olivesburg Rd.
Mansfield, Ohio 44905

/5-4v

Date: a

10

9" -1/2020 8:48:34 AM PAGE 11,/"'•1

Fax-02

Fax Server

t304517249 Fifth District 11

COURi u,
IN THE COURT OF APPEALS FOR RICHLAND COUNTY, 040LAND COUNT"
FIFTH APPELLATE DISTRICT
FILED r

1820 SEP 30
STATE OF OHIO

LINDA

JUDGMENT ENTRY

or 16

FR

CLERK OF'
of -OURTs
r AR Y

Plaintiff-Appellee
-vs:

Case No. 20CA21
20CA22

ADAM M. DEVORE
Defendant-Appellant
For the reasons stated in our accompanying Opinion on file, the judgment of the
Richland County Court of Common Pleas is affirmed. Costs assessed to appellant.

tt47144i0., a.
HON. PATRICIA A. DELANEY
/1"\
7

V"

4.11

/ 1/
1641117.„)171

HON. WILLIAM B. HO FM IX

HON. W. SCOTT GWIN

CERTIFICATE OF SERVICE .

i cvyn
V. Att
Jo5e_eh

or-e-

I hereby ccrtit that a talc and correct copy
oldie litre2oint! Is as served according to
appellate rule. ahtt 11)

0 Placed in Counsel'. os in Clerk or Courts
of
3/)
this ..!:
Clerk of Courts

.P‘

1

Fax-02

9( (2020 8:48:34 AM PAGE

3/( •s",

Fax Server .

1304517249 Fifth District 11

DOUR T
RICHLAND COUNT
Y
FILED

MD SEP 3 0 A q: I b
LINDA H.
CLERK OF FRARY
COURTS

COURT OF APPEALS
RICHLAND COUNTY, OHIO
FIFTH APPELLATE DISTRICT
STATE OF OHIO
Plaintiff-Appellee

JUDGES:
Hon. William B. Hoffman, P.J.
Hon. W. Scott Gwin, J.
Hon. Patricia A. Delaney, J.

-vsCase No. 20CA21
20CA22
ADAM M. DEVORE
Defendant-Appellant

; OPINION

CHARACTER OF PROCEEDING:

Appeal from the Richland County Court
of Common Pleas, Case Nos. 12CR563
and 12CR742

JUDGMENT:

AFFIRMED

DATE OF JUDGMENT ENTRY:

APPEARANCES:
For Plaintiff-Appellee:

For Defendant-Appellant:

GARY BISHOP
RICHLAND CO. PROSECUTOR
JOSEPH C. SNYDER
38 South Park St.
Mansfield, OH 44902

ADAM DEVORE, PRO SE
Inmate No. A704-923
Richland Correctional Institution
P.O. Box 8107
Mansfield, OH 44905

•

RULE 58 (B) NOTICE
THIS JUDGMENT V4*$ ENTERED ON THE
•
COURTSJOIIRNAL
ON
BY
Richlan ounty Clerk of Courts
Deputy Clerk

91`(2020 8:48:34 AM PAGE 4P-1, Fax Server

Fax-02

304517248 Fifth District 11

Richland County, Case Nos. 20CA21 and 20CA22

2

Delaney, J.
{¶1) This is a consolidated appeal from two judgment entries of the Richland
County Court of Common Pleas, both overruling appellant's motion to withdraw his guilty
pleas: the Order on Pending Motions of January 27, 2020 [case number 12-CR-742] and
Order on Pending Motions of January 28, 2020 [case number 12-CR-563]. Appellee is
the state of Ohio.
FACTS AND PROCEDURAL HISTORY
{¶2} On August 13, 2012, appellant was charged by indictment with one count
of domestic violence pursuant to R.C. 2919.25(A), a felony of the fourth degree [Richland
County Court of Common Pleas case number 12-CR-0563].
(¶3) On October 11, 2012, appellant was charged by bill of information with one
count of intimidation-pursuant to R.C. 2921.04(B), a felony of the third degree [Richland
County Court of Common Pleas case number 12-CR-0742].
0[4) On or around October 15, 2012, appellant entered pleas of guilty in both
cases. We note that in the Admission of Guilt/Judgment Entry dated October 15, 2012,
in case number 12-CR-742, the entry notes "Dismiss: Obstructing Justice, Count II,
2921.32, F-5."
{¶5} We further note that on October 15, 2012, the day he entered his guilty
pleas, appellant signed a Waiver of One-Day Service of the bill of information and a
Waiver of Indictment. The Summons upon the bill of information states "to be served in
court."

Fax-02

9(-- (2020 8:48:34 AM PAGE

5

1.

Fax Server

$304517249 Fifth District 11

Richland County, Case Nos. 20CA21 and 20CA22

3

{116} On November 21, 2012, the trial court sentenced appellant to a term of
community control. The record indicates appellant's period of community control was
successfully terminated on August 27, 2014.
On December 12, 2019, appellant filed motions to consolidate both cases
and to withdraw his pleas of guilty. Appellant asserts he received ineffective assistance
of trial counsel during his guilty pleas because he was told his pleas of guilty were in
exchange for dismissal of "Obstructing Justice, Count II" when in fact there is no Count II
in the. October 11, 2012 Bill of Information.
Appellant further cites a police report dated October 9, 2012, describing
incidents of appellant allegedly harassing the victim in telephone calls from the Richland
County Jail. In pertinent part, the report states, "Per Prosecutor Pigg, Felony Warrants
for Intimidation and Obstructing Justice were completed and served upon [appellant], at
the incident location."
Appellee responded with a memorandum in opposition and appellant
replied. The trial court overruled appellant's motion to withdraw his guilty pleas on
January 27, 2020.
_{¶10} Appellant now appeals from the trial court's Judgment Entry of January 27,
2020.
{11 1 Appellant raises one assignment of error:

s'"-- V2020 8:48:34 AM PAGE

Fax-02

Fax Server

1304517249 Fifth District 11

Richland County, Case Nos. 20CA21 and 20CA22

4

ASSIGNMENT OF ERROR
{¶12} "THE TRIAL COURT ERRED TO THE PREJUDICE OF DEVORE BY
ABUSING ITS DISCRETION AND MAKING UNREASONABLE FACTUAL FINDINGS IN
OVERRULING DEVORE'S CRIM.R. 32.1 MOTION TO WITHDRAW GUILTY PLEAS
WITHOUT A HEARING."
ANALYSIS
(%13} In his sole assignment of error, appellant argues the trial court should have
permitted him to, withdraw his pleas of guilty because he was not charged with obstructing
justice as referenced in the Admission of Guilt/Judgment Entry of October 15, 2012. We
disagree.
{V 4} Appellant did not appeal from his conviction and sentence; this appeal
arose frorn appellant's post-sentence motion to withdraw his guilty pleas. A motion to
withdraw plea is governed by the standards set forth in Criminal Rule 32.1, which provides
that a trial court may grant a defendant's post-sentence motion to withdraw a guilty plea
only to correct a manifest injustice. Therefore, "[a] defendant who seeks to withdraw a
plea of guilty after the imposition of sentence has the burden of establishing the existence
of manifest injustice." State v. Smith, 49 Ohio St.2d 261, 361 N.E.2d 1324 {1977).
Although no precise definition of "manifest injustice" exists, in general, "manifest injustice
relates to some fundamental flaw in the proceedings which result in a miscarriage of
justice or is inconsistent with the demands of due process." State v. Walsh, 5th Dist.
Licking No. 14-CA-110, 2015-Ohio-4135, ¶ 16, citing State v. Wooden, 10th Dist. Franklin
No. 03AP-368, 2004-Ohio-588. Under this standard, a post-sentence withdrawal motion

Fax-02

9( ',(2020 8:48:34 AM PAGE

7/r
1

Fax Server

1304517249 Fifth District 11

Richland County, Case Nos. 20CA21 and 20CA22

5

is allowable only in extraordinary cases. State v. Smith, 49 Ohio St.2d 261, 361 N.E.2d
1324 (1977).
A defendant seeking to withdraw a post-sentence guilty plea bears the
burden of establishing manifest injustice based on specific facts contained in the record
or supplied through affidavits attached to the motion. Walsh, supra, 2015-Ohio-4135 at ¶
16, citing State v. Graham, 5th Dist. Delaware No. 12 CAA 11 0082, 2013—Ohio-600.
In the instant case, appellant provided his own affidavit stating in pertinent
part that while he was incarcerated and awaiting trial on the domestic violence charge,
he was served with a "paper" by a Mansfield police officer describing a charge of
intimidation and a charge of obstruction of justice. Appellant states, "Said paper appeared
to be another indictment if recollection serves to be correct." Affidavit ¶ 2. Appellant
acknowledges that he was arraigned and entered guilty pleas on October 12, 2012 to one
charge of domestic violence and one charge of intimidation. Appellant further asserts
that he changed his pleas to guilty in exchange for appellee dropping the nonexistent
count of obstruction. Affidavit ¶ 4.
We have often observed a self-serving affidavit or statement is generally
insufficient to demonstrate manifest injustice. State v. Patterson, 5th Dist. Stark No.
2003CA00135, 2004-Ohio-1569, 2004 WL 615751, IT 20.
Moreover, even assuming appellant's factual assertions are correct, he has
failed to demonstrate manifest injustice. His argument overlooks the fact that he waived
indictment and one-day service, and was charged in the latter intimidation case via a bill
of information. As the trial court pointed out in the decision overruling the motion to
withdraw the guilty pleas, "[al bill of information allows a defendant and the State to enter

9- V2020 8:48:34 AM PAGE
W4517249 Fifth District 11
Fax-02

Fax Server

Richland County, Case Nos. 20CA21 and 20CA22

6

a plea bargain prior to charges actually being filed as a bill of information requires the
defendant to waive the right to be indicted by grand jury." Jan. 28, 2020 Entry, 2.
Appellant claims he was tricked by his own counsel and the prosecutor into pleading guilty
to avoid a non-existent charge. The more likely explanation is that if appellant had not
agreed to plead to the bill of information, the bill would have been withdrawn and appellee
would have sought indictment upon one count of intimidation and one count of
obstruction.
(f19) Further, we fail to see how these facts create a manifest injustice such that
a fundamental flaw occurred in the proceedings resulting in a miscarriage of justice, or is
inconsistent with the demands of due process. See, State v. Walsh, 5th Dist. Licking No.
14-CA-110, 2015-Ohio-4135, supra, at 1116. Appellant entered pleas of guilty, and was
convicted, upon two counts instead of three. He avoided a fifth-degree felony count of
obstruction of justice. By appellant's own admissions in the police report attached to his
motion, he could have been indicted upon separate counts for each phone call he made
to the victim threatening her or advising her not to testify.
{¶20) The lengthy delay in filing of appellant's motion to withdraw guilty pleas is
also problematic. As noted supra, appellant successfully completed his term of
community control in 2014. Five years later, he filed the motion to withdraw his guilty
pleas. The length of passage of time between the entry of a plea and a defendant's filing
of a Crim. R. 32.1 motion is a valid factor in determining whether a "manifest injustice"
has occurred. State v. Lane, 5th Dist. Richland No. 03-CA-89, 2004-Ohio-2235, ¶19,
citing State v. Copeland-Jackson, Ashland App. No. 02C0A018, 2003-Ohio-1043.

12020 8:48:34 AM PAGE 9/-

Fax-02

Fax Server

1304517249 Fifth District li

Richland County, Case Nos. 20CA21 and 20CA22

7

A reviewing court will not disturb a trial court's decision whether to grant a
motion to withdraw a plea absent an abuse of discretion. State v. Cerebella 17 Ohio St.3d
66, 477 N.E.2d 627 (1985). In order to find an abuse of discretion, we must determine
that the trial court's decision was unreasonable, arbitrary or unconscionable and not
merely an error of law or judgment. Blakemore v. Blakemore, 5 Ohio St.3d 217, 450
N.E.2d 1140 (1983). In the instant case, we find no abuse of discretion by the trial court.
We find appellant's argument that his plea was in effect not voluntary
because it was induced by appellee's decision to drop or not indict upon a count of
obstruction is insufficient to demonstrate manifest injustice. See Lane, supra, 5th Dist.
Richland No. 03-CA-89, 2004-Ohio-2235, at 1 19. As to appellant's argument that the
trial court should have held a hearing on the motion, "[a] hearing on a post-sentence
Crim.R.- 32.1 motion is not required if the facts alleged by the defendant and accepted as
true by the trial court would not require the court to permit a guilty plea to be withdrawn."
Id. The trial court in the instant case therefore did not abuse its discretion in failing to hold
a hearing upon appellant's motion.
Finally, appellant's allegations of ineffective assistance of counsel are not
appropriately raised in a motion to withdraw guilty pleas.
Appellant negotiated a sentence of community control before entering the
guilty pleas. Counsel at all times represented appellant. Appellant was sentenced in
accordance with his agreement. Appellant has not explained why he waited over five
years after he entered his plea before filing his motion to withdraw the pleas. State v.
Lathan, 5th Dist. Guernsey No. 09-CA-42, 2010-Ohio-4540,1 42, appeal not allowed, 127

Fax-02

9'"--'1/2020 8:48:34 AM PAGE 10,-N.

Fax Server

4304517249 Fifth District L

Richland County, Case Nos. 20CA21 and 20CA22
Ohio St.3d 1534, 2011-Ohio-376, 940 N.E.2d 987. The trial court did not abuse its
discretion in overruling appellant's motion to withdraw his pleas of guilty.
(125) Appellant's sole assignment of error is therefore overruled and the judgment
of the Richland County Court of Common Pleas is affirmed.
. CONCLUSION
{1126} Appellant's sole assignment of error is overruled and the judgment of the
Richland County Court of Common Pleas is affirmed.
By: Delaney, J.,
Hoffman, P.J. and
Gwin, J., concur.

ra,rwea a

HON. PATRICIA A. DELANEY
"..,--\ /
i ' i
•
1.2
..1 ./1
f ao1.1
y- ,-) IN -.."kk-1
e4t
1 211
HON. WILLI M B...10 FM

, 4,

4.)

...we...,"

HON. W. SCOTT GWIN

d

11 r

;,
RICHLA NU COLY.64-

rzattE
ur
et of Oilier
Thz $upd
• 2021 JAN 2 1 A

tt- _CI

DEC 29 2020

311

CLERK OF COURT
SUPREME COURT OF OHIO

LINDA H. FRARY
CLERK OF COURTS

State of Ohio

Case No. 2020-1303

v.

ENTRY

Adam DeVore
Upon consideration of the jurisdictional memoranda filed in this case,
the courtdeclines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Richland County Court of Appeals; Nos. 20CA21 and'20CA22)

Maureen O'Connor
Chief Justice

The Official Case Announcement can be found at http://wwwsuprern

ecourt.ohio.gov/ROD/docs/

APP

